           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                 Date:    October 24, 2013
           Single Audit of the Transbay Joint Powers
           Authority
           Report No. QC-2014-001


  From:    George E. Banks, IV                                     Reply to
                                                                   Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FRA, Region VII


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Transbay Joint Powers Authority (the Authority). This report
           presents the results of our Quality Control Review (QCR) on DOT’s major grant
           programs included in the single audit of the Authority performed by Vavrinek,
           Trine, Day & Co., LLP (VTD) for the fiscal year ending June 30, 2012. During
           this period, the Authority expended approximately $123 million from DOT grant
           programs, as shown on the attached Schedule of Expenditures of Federal Awards.
           VTD determined that DOT’s major programs were the High Speed Rail Corridors
           and Intercity Passenger Rail Service Program and the Federal Highway Planning
           and Construction Program. We limited the scope of our QCR to the High Speed
           Rail Corridors and Intercity Passenger Rail Service Program because its
           expenditures were approximately 94 percent of the total DOT expenditures.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           VTD rendered an unqualified opinion on the Authority’s financial statements and
           compliance with DOT’s major program requirements for the High Speed Rail
                                                                                                    2


Corridors and Intercity Passenger Rail Service Program and the Federal Highway
Planning and Construction Program, and did not question any costs. 1

SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on the High Speed Rail
Corridors and Intercity Passenger Rail Service Program.

RESULTS

We determined that VTD’s audit work was Acceptable, and therefore, met the
requirements of the Single Audit Act, OMB Circular A-133, and the DOT major
program reviewed. We found nothing to indicate that VTD’s opinion on the DOT
major program reviewed was inappropriate or unreliable.

However, we identified the following deficiency as part of our desk review of the
Authority’s Fiscal Year 2012 Single Audit Report.

• The Highway Planning and Construction Program was not identified as a
  major program on the Data Collection Form (DCF).

VTD and the Authority agreed to correct the DCF and submit it to the Federal
Audit Clearinghouse.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                                  #

cc: Audit Liaison, FRA, RAD
    Audit Liaison, FHWA, HAIM-13
    Audit Liaison, OST, M-1
    Chief Financial Officer, Transbay Joint Powers Authority




1
   The single audit report issued by Vavrinek, Trine, Day & Co., LLP is available upon request sent to
singleauditrequest@oig.dot.gov.
                                                                              TRANSBAY JOINT POWERS AUTHORITY
                                                                               Schedule of Expenditures of Federal Awards
                                                                                   For the Year Ended June 30, 2012



                                                                                                                EXPENDITURES - FEDERAL SHARE                             REVENUES - FEDERAL SHARE
                                                       Federal                                              Cumulative    July 1, 2011  Cumulative                Cumulative    July 1, 2011  Cumulative
                                                       CFDA             Grant               Program           through       through       through                   through       through       through
Program Description                                    Number          Number                Award         June 30, 2011 June 30, 2012 June 30, 2012             June 30, 2011 June 30, 2012 June 30, 2012
U.S. DEPARTMENT OF TRANSPORTATION
Federal Transit - Capital Investment Grants:
Federal Transit Formula Grants:
 General Capital Assistance                            20.500    CA-04-0010             $     6,649,751    $     6,649,751   $             -   $     6,649,751   $     6,649,751   $             -   $     6,649,751
 General Capital Assistance                            20.500    CA-04-0040                   7,008,960          6,762,049            87,542         6,849,591         6,762,049            87,542         6,849,591
 General Capital Assistance                            20.500    CA-04-0087                   7,593,040          6,928,678           626,418         7,555,096         6,928,678           626,418         7,555,096
 General Capital Assistance                            20.500    CA-04-0140                   7,885,080          1,851,733         1,444,450         3,296,183         1,851,733         1,444,450         3,296,183

   Total Federal Transit - Capital Investment Grants                                         29,136,831         22,192,211         2,158,411        24,350,621        22,192,211         2,158,411        24,350,621

Federal Railroad Administration (FRA) Capital Grants:
  High-Speed Rail Corridors and Intercity
     Passenger Rail Service
     American Recovery and Reinvestment Act (ARRA)    20.319     FR-HSR-0007-10-01-00       400,000,000         79,762,395       115,086,115       194,848,510        79,762,395       115,086,115       194,848,510
 Rail Line Relocation and Improvement                 20.320     FR-LR1-0021-11-01-00         2,650,000          2,229,622           420,378         2,650,000         2,229,622           420,378         2,650,000

   Total Federal Railroad Administration Grants                                             402,650,000         81,992,016       115,506,494       197,498,510        81,992,016       115,506,494       197,498,510

Highway Planning and Construction Grant:
General Capital Assistance               20.205                  CA-70-X011                  24,459,002             42,290         4,882,561         4,924,851            42,290         4,882,561         4,924,851
TOTAL U.S. DEPARTMENT OF TRANSPORTATION                                                     456,245,833        104,226,517       122,547,466       226,773,983       104,226,517       122,547,466       226,773,983

U.S. DEPARTMENT OF HOMELAND SECURITY
Federal Emergency Management Agency (FEMA)
Rail and Transit Security Grant Program:
  Capital Grant
     FY2009 Transit Security Grant Program             97.075    2009-RA-T9-K021                100,000             85,000            15,000           100,000            85,000            15,000           100,000
  Capital Grants Passed Through from AC Transit
    FY2008 Transit Security Grant Program (F0018)      97.075    2008-RL-T8-K018              1,461,930                -             469,782           469,782               -             469,782           469,782
    FY2009 Transit Security Grant Program (F0017)      97.075    2009-RA-T9-K002              1,936,142                -           1,774,716         1,774,716               -           1,774,716         1,774,716

TOTAL U.S. DEPARTMENT OF HOMELAND SECURITY                                                  3,498,072             85,000         2,259,498         2,344,498            85,000         2,259,498         2,344,498
TOTAL SCHEDULE OF EXPENDITURES OF FEDERAL AWARDS                                        $ 459,743,905      $ 104,311,517     $ 124,806,964     $ 229,118,481     $ 104,311,517     $ 124,806,964     $ 229,118,481




                                                                                                      46
